(=3

35

FILED
DEC 14 2020
OF TIHE CLERK I

Jn tf)B Supreme €ourt of tfte Mmteb Stalest
IN RE: JODY D. KIMBRELL, Petitioner

ON PETITION FOR A WRIT OF MANDAMUS
TO THE ILLINOIS SUPREME COURT 126714

EMERGENCY PETITION FOR WRIT OF MANDAMUS

Jody D Kimbrell
6608 N University St
Peoria, IL 61614
309 678-3857
jody513@comcast.net

QUESTIONS PRESENTED
In 2020, Plaintiff was a registered voter in the State of Illinois. On
March 17, 2020 a Presidential Primary Election was held. Cook County, a
northern Illinois county that includes the City of Chicago, filed their
summary of said election. The combined total of ballots cast for Cook
County including City of Chicago were 1,037,951. The total registered
voters for Cook County 1,494,199.
On November 3, 2020 Cook County posted on their website 2,349,010
ballots were cast. A total of 778,883 of unknown ballots appeared without
registered voters shown as 1,570,127.
The Democrat candidate Joseph Biden was shown he had received
1,725,973 a number above the 1,570,127 registered voters in the county.
The other candidates were listed but with the numbers posted did not
receive any votes even though listed as receiving 500,973.
When the "unknown unregistered voter ballots" are removed from the
winner Biden/Harris total it leaves 947,090 votes. Giving the other
candidates their posted votes leaves the Biden/Harris ticket receiving
446,117 giving him 2,181,907 total Illinois votes and Donald J Trump
2,438,696 winning Illinois. The same goes for the Democrat Senator
Durbin losing to Candidate Curran by 88,619 votes. The questions
presented are as follows:
1. Does a voter in Illinois have a right to ask the Illinois Supreme Court to
order the Illinois Election Commission, Governor of Illinois and the Cook
County Clerk to explain the appearance of 778,393 votes?
2. Can a County "add" votes to insure their choice for President wins?
3. Can a State award electors to a Presidential candidate that won by
mystery votes being added to the count?
4. Should the State of Illinois have investigated petitioner's claims before
certifying or awarding electors to a Presidential Candidate?

I

PARTIES TO THE PROCEEDING
Petitioner: Jody D Kimbrell, Illinois Citizen, certified election
poll book judge.
Respondents in the case the Illinois Supreme Court;
Attorney General of Illinois * Civil Division;
Cook County Clerk Karen Yarbrough
Illinois State Board of Elections Exc Director Steve Sandvoss
ssandvoss@e lections, il. gov
Jessica Megan Scheller and Governor of Illinois Jay Robert
Pritzker.

Named for following the same "adding" of mystery votes to the
count.
These parties websites have the same vote count totals
registered voters and opposing number from the primary
numbers to the election numbers.
Wayne County Detroit, Michigan
Fulton County Atlanta, Georgia
Philadelphia County Philadelphia, Pennsylvania
Dane County Madison, Wisconsin

II

TABLE OF CONTENTS
Page
Opinions....
IV
Jurisdiction,
1
Statement...
1
Reasons for granting the Petition......................................................
2
A.
A voter has a clear and indisputable right to question a vote
count that changes the outcome of a Presidential election
1. The Illinois Supreme Court clearly had jurisdiction to order the
Respondents to clarify their vote numbers in Cook County.,
2
2. The Illinois Supreme Court erred by dismissing the case
without opinion or reason.......................................................
2
3. The Illinois Supreme Court clearly erred not staying the
certification of an election when questions were raised by a voter
as to the vote count in Cook County,
2
B.
The Petitioner has no other adequate means to attain relief from a
questionable vote count by the Cook County clerk
3
C.
The "adding" of votes to elect a preferred candidate over the citizens of the
State violates both State and Federal election law
3
D.
That the "adding" of needed votes to elect a preferred candidate occurred
in four other States like the adding occurred in Cook Co IL,
3
E.
Mandamus relief is appropriate under the circumstances....
3,4
Conclusion,
4
Appendix A
Illinois Supreme Court Order
Appendix B
Cook Co IL Vote counts to registered voters
Wayne Co MI Vote counts to registered voters
Fulton Co GA Vote counts to registered voters
Dane Co WI Vote count to registered voters Philadelphia Co PA Vote Count to
registered voters

III

TABLE OF AUTHORITIES

CASES
After a long and hard search Petitioner was unable to find a case where
County Clerks added mystery votes to the official counts. Like in Cook
County making a City Chicago a county then using the county
registered voters for both and doubling the count.
All Writs Act 28 U.S.C. § 1651(a)

52 USC 20511

1
3

Rule 21(a) Mandamus

3,4

Howard, 2016 IL 120729

2,3

Konetski, 233 Ill. 2d at 192-93

4

US Constitution
Art. I CL 1 Election Clause

1

IV

Jurisdiction

The All Writs Act 28 U.S.C. § 1651(a), gave the
"Supreme Court and all courts established by Act of
Congress" the authority to issue writs of mandamus "in aid of
their respective jurisdictions and agreeable to the usages and
principles of law.
Supreme Court rule 20 lays out the steps
STATEMENT OF THE CASE
Petitioner brought this action under 42 USC 1983 and
1988 to remedy deprivations of rights secured by the
Constitution and laws of the United States. Article I 4 CL 1
of the US Constitution Election Clause provides free and fair
elections without hanky panky by State officials adding
mystery votes to elect their choice for president.
While no decision of this Court can repair the fractures
by State officials, verified by their official record, only a fair
and open inquiry that allows the truth to be discovered can
do so. Appendix B

1

The Illinois Supreme Court should have allowed
petitioner's requests by grating the petition, staying the
certification of the November 3, 2020 election and letting the
respondents answer, instead of tossing the petitioner to the
wind and ignoring her claim of voter malfeasance by the Cook
County Clerk.

Reasons for Granting the Petition
A.

A voter has a clear and indisputable right to question a vote
count that changes the outcome of a Presidential election
1. The Illinois Supreme Court clearly had jurisdiction to order the
Respondents to clarify their vote numbers in Cook County.

The State Board of Elections administers the election
laws of the State of Illinois and must adhere to
Federal Election law.
2. The Illinois Supreme Court erred by dismissing the case
without opinion or reason
Order denying the action Appendix A
3. The Illinois Supreme Court clearly erred not staying the
certification of an election when questions were raised
by a voter as to the vote count in Cook County.
2

The Illinois Supreme Court should have invoked their
power when alleged election malfeasance was presented to their
Court. The time frame allowed the respondents to answer as
required. A writ of mandamus will be awarded if the petitioner
establishes a clear right to the relief sought a clear duty of the
public official to act, and clear authority in the public official to
comply with the writ. Howard, 2016 IL 120729
B.

The Petitioner has no other adequate means to attain relief from
a questionable vote count by the Cook County clerk
The Illinois Supreme Court had jurisdiction but chose not to
grant petitioners action, allowing unanswered where the 778,393
votes counted in Cook County came from.

C.

The "adding" of votes to elect a preferred candidate over the
citizens of the State violates both State and Federal election law
52 USC 20511: Criminal penalties Text contains those laws in
effect on December 1, 2020 From Title 52-VOTING AND
ELECTIONS Subtitle II- Voting Assistance and Election
Administration CHAPTER 205-NATIONAL VOTER
REGISTRATION. The Cook County Clerk should have been
ordered to respond explaining her vote totals vs voter registration
for her county.

That the "adding" of needed votes to elect a preferred candidate
D.
occurred in four other States like the adding occurred in Cook Co IL
Petitioner has no standing to bring allegations against other
States election totals, only did a review and found the same
3

numbers reflecting the adding of mystery votes to the totals vs the
registered voters they had listed.
E.

Mandamus relief is appropriate under the circumstances
“Mandamus is an extraordinary remedy used to compel a
public official to perform a purely ministerial duty where no
exercise of discretion is involved.” People ex rel. Alvarez v.
Howard, 2016 IL 120729
“Although mandamus generally provides affirmative rather
than prohibitory relief, the writ can be used to compel the
undoing of an act,” Howard, 2016 IL 120729 and “to compel
compliance with mandatory legal standards,” Konetski, 233 Ill.
2d at 192-93.

Conclusion
For the reasons set forth in this petition for a writ of
mandamus and or prohibition, petitioner respectfully requests
that this Court issue an order of injunction denying certification
any Election results until the Respondents Illinois State Board of
Elections, Jay Robert Pritzker, Governor of Illinois and Karen
Yarbrough Cook County Clerk can file briefs explaining the
numbers they have filed in the 2020 National Election.
4

The results of assignment of Electors will be changed if they
cannot explain the numbers in the November 3, 2020 Federal
Presidential and Senate Race they filed as true and correct.
Submitted this 12th day of December, 2020
’7 s/'1 Jody D Kimbrell
Jody D Kimbrell
6608 N University St Peoria, IL 61614
(309) 678-3857
jody513@comcast.net

VERIFICATION BY CERTIFICATION
Under penalties as provided by law pursuant to Section 1-109 of the
Code of Civil Procedure, the undersigned certifies that the statements set forth
in this instrument are true and correct, except as to matters therein stated to
be on information and belief and as to such matters the undersigned certifies
as aforesaid that she verily believes the same to be true.

'7 s/1' Jodv D Kimbrell

5

